<html>
<title> - THE IMPLEMENTATION OF THE ALASKA NATIONAL INTEREST LANDS CONSERVATION ACT OF 1980, INCLUDING PERSPECTIVES ON THE ACT'S IMPACTS IN ALASKA AND SUGGESTIONS FOR IMPROVEMENTS TO THE ACT</title>
<body><pre>[Senate Hearing 114-464]
[From the U.S. Government Publishing Office]


                                                      S.Hrg. 114-464

 THE IMPLEMENTATION OF THE ALASKA NATIONAL INTEREST LANDS CONSERVATION 
ACT OF 1980, INCLUDING PERSPECTIVES ON THE ACT'S IMPACTS IN ALASKA AND 
                SUGGESTIONS FOR IMPROVEMENTS TO THE ACT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            DECEMBER 3, 2015

                               ----------
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               
                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
           Available via the World Wide Web: http://www.fdsys.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
98-964                        WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a>                
               


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
          Chuck Kleeschulte, Senior Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                              
                              
                              
                              C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................    23

                               WITNESSES

Sullivan, Hon. Dan, a U.S. Senator from Alaska...................    24
Walker, Hon. Bill, Governor, State of Alaska.....................    27
Coghill, Hon. John, Majority Leader, Alaska State Senate.........    35
Arno, Rod, Executive Director, Alaska Outdoor Council............    52
Brown, Valerie, Legal Director, Trustees for Alaska..............    60
Kindred, Joshua, Environmental Counsel, Alaska Oil & Gas 
  Association....................................................    70
Seidman, Anna, Director of Litigation, Safari Club International.    78
Tangen, J.P., Attorney at Law....................................    85

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Ahtna, Incorporated:
    Letter for the Record........................................   121
Alaska Federation of Natives:
    Statement for the Record.....................................   123
Alaska Miners Association:
    Letter for the Record........................................   128
Alaska Professional Hunters Association:
    Letter for the Record........................................   154
Alaska Trappers Association:
    Letter for the Record........................................   160
Alaska Travel Industry Association:
    Letter for the Record........................................    22
Alaskans for Wildlife:
    Statement for the Record.....................................    20
Arctic Slope Regional Corporation:
    Letter for the Record........................................   162
Arno, Rod:
    Opening Statement............................................    52
    Written Testimony............................................    54
Association of Fish & Wildlife Agencies:
    Letter for the Record........................................   166
Borrell, Steven, P.E.:
    Letter for the Record........................................   170
Brown, Valerie:
    Opening Statement............................................    60
    Written Testimony............................................    62
    Responses to Questions for the Record........................   118
Cantwell, Hon. Maria:
    Opening Statement............................................    23
Citizens Alliance Protecting School Lands:
    Statement for the Record.....................................   171
Coghill, Hon. John:
    Opening Statement............................................    35
    Written Testimony............................................    37
    Responses to Questions for the Record........................   111
Dahlstrom, Kirk:
    Explanation of the Need to Inventory all 425,000 Acres of 
      Young-Growth on the Tongass................................     6
    Transition to Young-Growth Harvesting 11-30-09...............     8
Doyon, Limited:
    Statement for the Record.....................................   232
Fortymile Mining District:
    Letter for the Record........................................   239
Gibert, Sally:
    Statement for the Record.....................................    11
Heimer, Wayne:
    Letter for the Record........................................   241
Kindred, Joshua:
    Opening Statement............................................    70
    Written Testimony............................................    72
Likins, David:
    Letter for the Record........................................   253
Mack, Hon. Henry:
    Letter for the Record........................................   255
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Parks Conservation Association:
    Letter for the Record........................................   259
Northwest Explorations Joint Venture:
    Statement for the Record.....................................   265
Resource Development Council for Alaska, Inc.:
    Letter for the Record........................................   411
Safari Club International, Alaska Chapter:
    Letter for the Record........................................   419
Seidman, Anna:
    Opening Statement............................................    78
    Written Testimony............................................    80
Sullivan, Hon. Dan:
    Opening Statement............................................    24
Tangen, J.P.:
    Opening Statement............................................    85
    Written Testimony............................................    88
    Supplement for the Record....................................   427
Walker, Hon. Bill:
    Opening Statement............................................    27
    Written Testimony............................................    29
    Map entitled ``Alaska State Lands''.......................... 34,99
(The) Wilderness Society:
    Statement for the Record.....................................   430
Wilderness Watch:
    Statement for the Record.....................................   433
Yarnell, Ronald:
    Letter for the Record........................................    17

 
 THE IMPLEMENTATION OF THE ALASKA NATIONAL INTEREST LANDS CONSERVATION 
ACT OF 1980, INCLUDING PERSPECTIVES ON THE ACT'S IMPACTS IN ALASKA AND 
                SUGGESTIONS FOR IMPROVEMENTS TO THE ACT

                              ----------                              


                       THURSDAY, DECEMBER 3, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    This morning we are conducting an oversight hearing on the 
Alaska National Interest Lands Conservation Act. We refer to 
this as ANILCA. This was a law that President Carter signed on 
December 2, 1980. So we are 35 years and a day into enactment 
of ANILCA and it is certainly time for a review. That is the 
purpose of this oversight before the Energy and Natural 
Resources Committee this morning.
    ANILCA set aside 104 million acres of national parks, 
refuges, monuments and wild and scenic rivers in one state, in 
my state, the State of Alaska, and modified the use of another 
nearly 40 million acres of parks and refuges located there. 
Overall the bill protected an area larger than the State of 
California and classified more than 57 million acres as 
wilderness representing, at that point, 61 percent of all 
formal wilderness in our nation.
    The 35th anniversary of ANILCA is an opportunity to examine 
how the law has and has not worked for Alaskans and really for 
all Americans. This is also a perfect moment to reassert that 
the law must be implemented as written not as Federal agencies 
wish that it was written. That means the Federal Government 
must honor rural preference, protect subsistence rights, 
provide Alaskans with access to our lands and allow us to 
responsibly develop our resources.
    For those who are not familiar with the long history of 
ANILCA, its final form reflects a series of compromises that 
were largely developed here in the U.S. Senate. The House of 
Representatives agreed to them, as did President Carter. That 
was critical because those compromises provide a measure of 
balance to ANILCA in the form of declarations, restrictions and 
exceptions intended to limit the negative effects that this law 
could have on Alaskans.
    For example, the first section of ANILCA asserts that the 
Act, ``provides sufficient protection for the national interest 
in the scenic, natural, cultural and environmental values on 
public lands in Alaska.'' That same section declares that 
ANILCA represents, and I quote here, ``represents a proper 
balance between the reservation of national conservation system 
units and those public lands and thus Congress believes that 
the need for future legislation designating new conservation 
system units has been obviated thereby.'' In this section, 
Section 1326, which we in Alaska refer to as the ``no more 
clause,'' ANILCA explicitly prohibits the President from ever 
again using the Antiquities Act to create new monuments in 
Alaska without Congressional approval. It also sought to limit 
new land set asides in the state by prohibiting some of the 
studies that precede them.
    Now along with the words that are contained in the act 
itself within ANILCA, we have the words of those who worked on 
ANILCA to go by. At the signing ceremony for ANILCA, President 
Carter observed, and I quote here, ``that ANILCA strikes a 
balance between protecting areas of great beauty and value and 
allowing development of Alaska's vital oil and gas and mineral 
and timber resources. A 100 percent of the offshore areas and 
95 percent of the potentially productive oil and mineral areas 
will be available for exploration and drilling. With this bill 
we are acknowledging that Alaska's wilderness areas are truly 
this country's crown jewels and that Alaska's resources are 
treasures of another sort.''
    That was President Carter's comment at the time of signing 
ANILCA that 100 percent of the offshore areas and 95 percent of 
the potentially productive oil and mineral areas will be 
available for exploration and development. What a promise that 
was.
    When you look at the plain text of ANILCA and the 
statements made about it by the people who wrote it, you see 
efforts to seek and maintain balance. ANILCA would not only 
protect lands and wildlife in Alaska, it would also protect the 
people who live there.
    The Act acknowledged that when it comes to formal 
wilderness we had done our part. We had contributed our share. 
At least in my read, it was not intended to close off our best 
opportunities or threaten our livelihoods. ANILCA has protected 
Alaska's crown jewels and has aided our tourism industry. But 
there are other aspects, particularly associated with its 
implementation, that have proven far more problematic. Take for 
example these promises that were made to Alaskans. The promise 
that we would not have to live in a permit society. The promise 
that we could continue to use the newly created conservation 
system units for recreation, hunting, fishing and subsistence. 
The promise that we would be guaranteed access to and across 
inholdings, and the promise that we could access our timber, 
our oil, our gas and our mineral resources. Today all of those, 
all of those promises, have been diminished, if not abandoned.
    It is not just that lands and waters for oil and gas 
development in Alaska have either been withdrawn or regulated 
to the point where no operator can do business in violation of 
President's Carters' promise. It is not just that more than 40 
million more acres of Alaska have been withdrawn or proposed 
for protection over the past seven years, including half of our 
national petroleum reserve and almost all of ANWR, clearly 
undercutting ANILCA's ``no more clause.'' It is not just that 
nearly 15 million acres have been removed from the timber base 
in our national forests contributing to the demise of an 
industry that once employed thousands in Southeast. It is not 
just that Alaskans are increasingly denied the ability to 
access private inholdings in or by passing through conservation 
system units or that existing traditional rights, such as our 
ability to hunt and fish on public lands, are being 
extinguished. It is not just that the series of new land 
planning efforts that seek to make temporary withdrawals 
permanent and evade ANILCA with new withdrawals through tools 
like areas of critical environmental concern. It is not just 
the access rights promised in Title 11 of ANILCA which have 
seldom been successfully implemented. It is not just Alaskans, 
like John Sturgeon, who will go before the U.S. Supreme Court 
next year, fighting for his right to access traditional hunting 
grounds after being denied access by the National Park Service.
    It is a combination of all of these. It is the cumulative 
effect. It is the fact that the Federal Government in ways both 
large and small is trampling on our state sovereignty over 
state lands and private sovereignty over private lands in 
Alaska. The Federal Government is changing its interpretations 
of ANILCA to suit itself with bureaucrats seeking to apply the 
law as they would have written it, but not as it was agreed to 
by Congress and as stated by President Carter. As that happens 
no one in Washington, DC, ever seems to hear the Alaskans who 
are impacted by the loss of access, rights and opportunities 
that inevitably follow.
    This is a law that is out of balance. It is a law that is 
out of balance. It is admittedly a very complex law and 
sometimes with seemingly contradictory directions to Federal 
agencies. And that, likely, is because ANILCA is the only time 
that Congress has passed legislation that applies to virtually 
all Federal lands within a single state's borders.
    Now clearly we could spend many days discussing this act. 
Just the issue of subsistence alone and the management of our 
fish and game stocks could consume many, many hours. My hope is 
that this hearing will serve as a starting point. A starting 
point to make ANILCA work better for Alaskans, even as we 
protect our national treasures and the subsistence rights of 
our native peoples.
    We had dozens, believe me, we had dozens more witnesses who 
wanted to speak this morning, but time and space just simply 
preclude the size of panel that we need to truly depict the 
impacts of the act in Alaska and across the opportunity. I can 
promise you that there will be more opportunities to be heard 
on this.
    I am grateful that we have a strong panel of witnesses, 
many of whom, including our Governor and our state Senator, who 
have flown thousands of miles, 4,000 miles, to be here.
    Governor Walker, Senator Coghill, our whole panel, thank 
you for being here to share your expertise on ANILCA and for 
the discussions that will follow. Senator Sullivan has joined 
the Committee for his comments this morning.
    As Alaskans have shown great interest in submitting 
comments on the law, I have some statements that I will also 
like to submit for the record. One is a statement from Kirk 
Dahlstrom of Viking Lumber, Incorporated of Klawock on some of 
the timber issues. We have a statement from Ms. Sally Gibert, 
the former Alaska ANILCA Program Coordinator, on ways to 
improve the operation of the Act. We have comments from Mr. Ron 
Yarnell and Mr. Jim Kowalsky, both supporting the Act's 
environmental benefits, and we have a comment from Sarah 
Leonard of the Alaska Travel Industry Association supporting 
the Act's impacts on Alaska.
    I am told that there is going to be plenty more testimony 
coming from others including many in Alaska's native community, 
and we would look forward to receiving them at the time.
    [The information referred to follows:]
For the Record submission from Mr. Kirk Dahlstrom of Viking 
Lumber, Inc.

  1. Explanation of the Need to Inventory all 425,000 Acres of 
Young-Growth on the
      Tongass
  2. Transition to Young-Growth Harvesting 11-30-09
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. With that I would like to turn to my 
colleague from Washington, Senator Cantwell.
    Thank you for being here this morning.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this hearing. Welcome to all the Alaskans who have 
traveled to be here today.
    Yesterday was the 35th anniversary of the date the Alaska 
National Interest Lands Conservation Act was signed into law, 
and somewhere in the back of my mind I can still imagine Scoop 
Jackson and Ted Stevens having conversations, many, many 
conversations, about this.
    The Chairman. They probably weren't quiet. [Laughter.]
    Senator Cantwell. No.
    So it certainly is an appropriate time to review the 
implementation--and in my view the tremendous success--of 
ANILCA. While the implementation of this law clearly has 
tremendous impact on Alaskans, I think it is important to 
remember that the lands covered by ANILCA are Federal lands and 
those are lands of national interest, as the title of the law 
itself states.
    According to the state's tourism data, Alaska had roughly 
1.7 million summer visitors, nearly double the population of 
the entire state. That includes visits to many of the iconic 
places that were protected by ANILCA, including popular 
National Park Service areas such as Glacier Bay, Lake Clark, 
and of course, Denali National Park and Preserve, which you 
were so instrumental in helping to get renamed and which 
encompasses many of the state's most iconic features.
    In addition, I should just note there is a Cantwell, Alaska 
in Denali.
    The Chairman. Yes. [Laughter.]
    Senator Cantwell. In addition to the popular national parks 
and national forests areas, ANILCA has protected millions of 
acres of more remote lands such as the Arctic National Wildlife 
Refuge. Whether heavily visited or not, these are lands of 
significant importance to all Americans. They are extremely 
important from an environmental and cultural standpoint by 
protecting intact Arctic ecosystems as well as important fish 
and wildlife habitat and migration routes, which are key for 
subsistence and other hunting and fishing opportunities.
    These lands also provide important economic benefits. The 
outdoor industry estimates that the outdoor recreation 
activities in Alaska, much of which take place on Federal land, 
support over 90,000 direct jobs and generate about $9.5 billion 
in consumer spending. So much of Alaska's tourism industry is 
based on visitors from all over the world wanting to visit the 
national parks and other public lands protected by ANILCA.
    I think it is important and is worth noting that many of 
the ecosystems protected under ANILCA include streams and 
rivers that are a central part of Alaska's significant 
commercial fishing activities, which support 20,000 direct jobs 
and are closely tied to the fishing industry of the State of 
Washington.
    So I know the witness panel will be predominantly 
representative of those expressing concerns over ANILCA and 
more specifically with the way the Federal agencies are 
implementing the law, but I do want to recognize there are 
always inevitable conflicts between State, Federal, and local 
interests in managing such large areas. However, much of the 
criticism today is directed at agency's practices or 
implementation of the law. So I think it would be appropriate 
at some time to have the relevant agencies here to provide the 
Administration's perspective. That would be helpful.
    While I expect that much of the hearing will be focused on 
specific concerns that different parties have on 
implementation, I would like to close on a broader perspective. 
On this anniversary of the law's enactment, I think it is 
important to appreciate the significant vision of the law and 
to join with millions of Americans who have enjoyed the 
treasure of this very, very special place.
    I hope that we will have a chance to ask some questions, 
but as I informed the Chair, we have a caucus meeting at 11 
o'clock so I will stay as long as I can to hear the witnesses.
    Again, welcome to the Alaskans who are here to participate 
in the hearing.
    The Chairman. Thank you, Senator Cantwell.
    We have been joined this morning by my colleague, Senator 
Sullivan, who has, obviously, a great deal of background within 
this area having served our state as former Attorney General, 
as well as Commissioner of Natural Resources. It is a pleasure 
to invite you before the Committee to put your comments on the 
record and speak, as an Alaskan, on a very important issue to 
us.
    Senator Sullivan.

    STATEMENT OF HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Madam Chair, Ranking Member 
Cantwell. I very much appreciate the opportunity to testify 
this morning. I appreciate, Madam Chair, in particular, your 
leadership on this issue in terms of the oversight and moving 
forward on ways to improve ANILCA.
    I am also, as you mentioned, honored to be here with so 
many distinguished fellow Alaskans, Senator Coghill, the 
Governor, many others, Rod Arno.
    I think you will hear a common theme from all of them. I 
have not looked at their testimony, but I think one common 
theme is going to be no more means no more.
    Madam Chair, you talked about how we've done our part, what 
ANILCA did in terms of setting aside 106 million acres. I mean, 
I'd like to add to that in terms of what Alaska presents for 
the country, 70 percent of National Park Service lands, 80 
percent of all wildlife refuge lands, 53 percent of wilderness 
lands, the number two and number one largest national forests, 
all are in our state. As you said, we have done our part.
    You also mentioned that the ``no more clause'' is in ANILCA 
and you mentioned Section 101D, but as you know, Madam Chair, 
there are other provisions of ANILCA that talk to the ``no more 
clause.'' Let me provide a couple other examples.
    Section 1326 says, ``No further studies of the Federal 
lands in the State of Alaska for the single purpose of 
considering the establishment of a conservation system unit, 
national recreation area, national conservation unit or for 
related or similar purposes shall be conducted unless 
authorized by a further act of Congress.'' That is in the law.
    Another part of the law, ``No further Executive Branch 
action which withdraws more than 5,000 acres in the aggregate 
of public lands within the State of Alaska shall be effective 
without an affirmative vote of Congress.'' The law is the law. 
That is the ``no more clause.'' What has happened since? Broken 
promises after broken promises. As you mentioned that was the 
key compromise. Year after year radical outside environmental 
groups and their allies push for more ways to lock up Alaska. 
And the Obama Administration, in particular, has readily and 
consistently attempted to eviscerate and ignore ANILCA's ``no 
more clause,'' as you mentioned, Madam Chair, 40 million acres 
attempted under this Administration to withdraw.
    The President recently announced he was ordering his 
agencies to manage 12 million acres of ANWR as wilderness. That 
is not allowed under the law. He also restricted access, as you 
mentioned, to 50 percent of the National Petroleum Reserve of 
Alaska, again, not allowed under ANILCA. His wildlands 
initiative early in the Administration was a blatant attempt to 
lock up more land in Alaska in violation of ANILCA. As you know 
there has been regulation after regulation to limit access and 
ability for Alaskans to practice hunting, trapping, fishing, 
activities that literally put food on the table of Alaskans.
    Likewise our miners continually fight for access to our 
lands.
    And I think it's important to remember, these are our 
lands. They're not the Department of the Interior's or BLM's. 
We, the people, own these lands.
    Most recently, as you mentioned, a moose hunter from Alaska 
has had to resort to spending hundreds of thousands of dollars 
on a lawsuit which will be heard by the U.S. Supreme Court next 
month to try to force the Federal Government to keep the 
promise that was made in the plain text of ANILCA.
    And we wonder why Congress and the Federal Government have 
such low approval ratings. When it comes to ANILCA, the Federal 
Government is a serial cheater.
    Everywhere I go in Alaska people come up to me to tell me 
that the lands that should be theirs under ANILCA are being 
blocked. I believe that's just wrong. There's a better way the 
Federal Government and the Executive Branch should keep its 
word. I know that this Committee will be looking at all 
recommendations to help make the promise and compromise of 
ANILCA the opportunity that it should be for all Alaskans.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Sullivan. Know that this 
is something that we will continue to work on, and I appreciate 
your support in that endeavor as well.
    I know you have lots going on this morning, so thank you 
for taking the time this morning.
    Now I would like to call up our panel of witnesses. We are 
going to squeeze you all in at the table, and as you come 
forward I will go ahead and begin the introductions.
    We have been joined this morning by the Governor of the 
State of Alaska, Governor Bill Walker. Governor Walker has been 
serving us as Governor of the state since his election last 
year in 2014.
    Why don't you all come forward and be seated?
    The Governor was born and raised in Alaska. He was raised 
down in Valdez. He has worked as a carpenter, as a teamster, 
and as a laborer on our Trans-Alaska Pipeline. He received his 
law degree from the University of Puget Sound School of Law and 
obtained his Bachelor of Science from Lewis and Clark in 
Oregon. The Governor and I have had opportunities to be working 
together, not only in his capacity as Governor, but prior to 
the time that he took over as the CEO of the State of Alaska. I 
appreciate his leadership in many, many ways.
    Governor Walker will be followed by Senator John Coghill. 
Senator Coghill has been an Alaska State Senator since 2009. He 
has been the Senate Majority Leader of the Alaska State Senate 
since January 2013. We both came into the legislature together 
as members of the State House in 1998. Senator Coghill also 
served his country in the United States Air Force. He is a true 
leader, not only for Interior Alaska, but for the state, and I 
am pleased to have you here as a friend and colleague. So, 
welcome to you.
    Following Senator Coghill, Mr. Rod Arno will present his 
testimony. Rod is the Executive Director of the Alaska Outdoor 
Council. This is an organization that is dedicated to the 
preservation of outdoor pursuits in Alaska, hunting, fishing, 
trapping and public access and conservation of the habitats 
upon which these activities depend. He has been a strong leader 
and a strong voice in so many of these areas. We appreciate 
your leadership, and we thank you for making the long trek back 
from home.
    Next we have Ms. Valerie Brown, and we welcome her to the 
Committee. She is the Legal Director for the Trustees of 
Alaska. This is a nonprofit, public interest, environmental law 
firm which represents conservation and tribal interests on 
environmental and natural resources that face our state. It is 
a pleasure to have you before the Committee, welcome.
    Next we have Mr. Joshua Kindred. Josh is the Environmental 
Counsel for the Alaska Oil and Gas Association which is a 
nonprofit, trade association representing the majority of oil 
and gas exploration, production, transportation, refining and 
marketing activities within the state. He has a big job. We 
appreciate what he does.
    Next we have Ms. Anna Seidman. Anna is the Director of 
Litigation for Safari Club International (SFI). SFI is a 
nonprofit organization whose mission includes protecting the 
freedom to hunt and promoting wildlife conservation worldwide, 
not just in the State of Alaska, of course. So we welcome you 
to the Committee.
    The final member of our panel is Mr. J.P. Tangen. J.P. is 
no stranger to Washington, DC, and no stranger to these issues. 
He is an attorney who has been practicing in the State of 
Alaska for 35 years. He has long represented the Alaska Mining 
Industry, but he has also served as the Alaska Regional 
Solicitor for the Department of the Interior. He has also been 
the Co-Chairman of the Alaska Miners Association Federal 
Oversight Committee. J.P. is the author of d(2) Part 2, a 
publication that I have made available to all members of the 
Committee and would certainly urge their review and 
consideration. Not that I am trying to sell any books for you, 
J.P., but it really does lay out so much of the history of this 
incredibly important act that we are looking to today.
    With that, Governor Walker, if we can begin with you?
    I know it is difficult, but I am going to try to ask each 
of you to keep your comments to five minutes. Your full 
testimony will be included as part of the record. Once all of 
you have concluded your remarks we will have an opportunity for 
questions and the follow up answers.
    So again, welcome to the Committee. Thank you for being 
here.
    Governor Walker.

           STATEMENT OF HON. BILL WALKER, GOVERNOR, 
                        STATE OF ALASKA

    Governor Walker. Thank you very much for this opportunity, 
Madam Chair Murkowski, Senator Cantwell, members of the 
Committee. As the Governor of Alaska I am honored to present 
today comments about the ANILCA.
    I was born in Alaska, as you mentioned. I remember very 
well the day of statehood. I was seven years old. We were in 
Delta Junction. We went into the A&W Root Beer stand. It was 
nobody's birthday, so I knew it was a big deal, something had 
happened really big. It is about 150 miles as the crow flies 
from Cantwell, Alaska. So at some point I hope you'll have a 
chance to visit Cantwell.
    You know, the excitement of becoming a state was one that 
we had a hope of self-sufficiency. It was not unanimous that 
Alaska came in as a state. Many were concerned that we could 
not make our way.
    We were told you will not have an income. You will not have 
the kind of infrastructure the other states have. You need to 
live off the resources.
    As part of that, the Statehood Compact was entered into, 
and the Statehood Compact is unique to Alaska. It says that in 
Alaska we cannot sell the resources in the ground. We must live 
off the resources. That was the deal we made.
    There's a reversionary clause in the Statehood Compact that 
says if you do sell the resources in the ground that land 
reverts back to the Federal Government. So we've been very 
careful to not sell resources in the ground. So it would be 
like a business who was having a difficult time, you had a 
warehouse, you'd sell the warehouse if you couldn't find a 
tenant or you couldn't get access. We can't do that. We're very 
unique in that regard we have to live off the land.
    So therefore we paid close attention in 1980 when ANILCA 
was entered into. Two key provisions of ANILCA, and Senator 
Sullivan has gone through them well, as you have Madam Chair. 
But one is, was compromise. That was a compromised piece of 
legislation. It was to bring balance. And the balance, I mean, 
it couldn't have been clearer than when President Carter talked 
about 100 percent access to offshore, 95 percent access to 
onshore. Today we have one percent access to onshore.
    We're trying to survive the downturn and resource, it's 
very important to our economy. And through a pipeline, I know 
in this city there's lots of discussion about pipelines. Let me 
tell you about our pipeline.
    I wear a lapel pin of Alaska with a pipe in it. And the 
only thing wrong with the Trans-Alaska Pipeline is that it is 
three quarters empty. It's three quarters empty because, 
largely because, of lack of access to our resources.
    You know, the 1002 section of the Coastal Plain of ANWR, 
the 1002 comes from ANILCA, from the 1002 section. It's a 
specific exemption that said you can have, there's a process to 
have access to this particular region because they knew then, 
they certainly know now, it is a very productive petroleum 
opportunity for our nation and for our state. It makes up eight 
percent of ANWR.
    With the shift of the oil now, we need access to one half 
of that, the Western half. That's four percent, four percent of 
that area that is set aside.
    So, you know, when I deal with budget deficits, when I 
dealt with laying off 600 employees last year, we're looking at 
significantly more layoffs. I look at not being able to fund 
certain things we wanted to fund in our great state.
    And I look at that oil that is literally within 50 miles of 
an oil pipeline, an existing oil pipeline, not one that needs 
to go through any process to be built. It's there. That's very 
frustrating that we cannot have access to four percent of that 
area that was specifically set aside to be evaluated for 
resource development, knowing full well.
    Much has happened since the Trans-Alaska Pipeline both in 
the way of technology advancement and in other development 
around the world. Methods of extraction are now available that 
were not available before. The migration of caribou herds are 
different than they were before. So that needs to be looked at 
again, and we plan to do that in a very aggressive manner.
    One thing I must say is that the makeup of Alaska has 
changed since we became a state. The Alaska Native Regional 
Corporations are major, major players in our state in every 
facet of it and certainly in the business sector. You don't go 
to the North Slope of Alaska without seeing the incredible 
accomplishments of those corporations in our state. So they are 
significantly impacted by ANILCA in every way as well.
    We haven't gotten the benefit of the deal. The deal was it 
was a compromise and it was supposed to be balanced, and it 
hasn't been. The ``no more clause'' has not been honored. We 
have not had the access that we should have had.
    So I have my own interpretation of the ``no more clause'' 
that I plan to use every day I am in office to make sure Alaska 
has access to our timber, to our mining and to our oil and gas 
development.
    Thank you very much for this opportunity.
    [The prepared statement of Governor Walker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Governor. Again, we appreciate not 
only you being here today, but being able to lend a historical 
perspective that I think is important for others to understand.
    Another individual who has a great historical perspective 
is Senator John Coghill. Welcome to Washington, DC.

 STATEMENT OF HON. JOHN COGHILL, MAJORITY LEADER, ALASKA STATE 
                             SENATE

    Mr. Coghill. Thank you, Senator Murkowski and Senator 
Cantwell, thank you for being here and Senator Gardner.
    It is my pleasure to speak not only as a state senator but 
I'm also voicing for the Citizens Advisory Commission on 
Federal Areas. And the testimony that you'll have before you is 
a compilation of things that we've heard from citizens all 
across Alaska coming to the Commission.
    But for me, born and raised in Alaska, in the territory of 
Alaska coming into statehood I was nine years old. My dad was 
part of the Constitutional Convention. And there was great 
expectation that came from statehood and one of them was the 
compromise, in Congress here was, that we would be living off 
our land as the Governor said.
    We put together a wonderful constitution that has in it the 
natural resource article that is unique to American 
constitutions. We have been good stewards of what we were set 
out to do, but Congress ratified this constitution saying you 
can do that.
    So, as the Governor said, it's a compact that we made with 
the Federal Government. But along the way in this compact issue 
we knew we were going to have to settle some Native Land Claim 
Settlements, and ANCSA came along shortly after we were a state 
and it rocked the state.
    It was a tough compromise even in Congress here, but we did 
it and we settled with 40 million acres and many, many other 
issues that came from the ANCSA agreement.
    Out of that came this ANILCA law that we would balance the 
ability of the state to prove its resources for an economy and 
take care of the national interest, as Senator Cantwell said.
    What it effectively did, and for those of you who don't 
understand how it impacts us in the state, it literally amended 
the Statehood Compact. So what we've done now is we've put 
ourselves in a place where if we can't get the promises given 
to us under ANILCA, our Statehood Compact becomes null and void 
or raggedy in such a way that it's not recognizable, as the 
Governor said. And with these broken agreements that you've 
heard already in testimony today, here's what the compacts, the 
guarantees and the agreements that have not been fulfilled mean 
to us.
    It's first very disingenuous to a people who had that great 
expectation. We had this slogan, north to the future. We were 
going to build a great state.
    We still have the opportunities, we have all the tools, but 
what's happened here is the erosion of our promises given to us 
at our statehood and the ensuing documents and ANILCA being 
this now 35-year old document. It's been disrespectful to the 
people, but it's been disrespectful to the law as well.
    We have had agency people through regulation literally able 
to, with guidance, change the Statehood Compact. This is just 
not acceptable. So but it's beyond that. It's a cancer to our 
economy.
    We can't get people to make investments in our economy 
knowing that the regulations are shifting with political wins. 
It's not now relating to the law as it should be, and so we're 
appealing that ANILCA needs to go back and take a look at the 
law and there are suggestions within the document that I'm 
giving you that is probably easier to read than hearing my 
testimony.
    But it's also strangling opportunity. We have wonderful 
resources that were promised us to be part of what the 750,000 
people in Alaska can build an economy with. We have villages 
that are literally inholdings in Federal areas that are 
strangled from the ability to produce an economy because they 
can't hunt. They can't fish. The transportation system has not 
been put together as promised by ANILCA.
    We have small communities that are literally dying because 
they can't move forward. We have people who will not invest in 
those communities for that very reason. They literally have to 
not only go through the law, but they have to go through a 
whole series of litigations in order to make any move, mining 
especially.
    I'll give you one example and my time is short. That 
Fortymile Mining District, they are literally redefining it and 
putting it in their conservation unit contrary to the laws. So 
in my testimony you'll see suggestions that can increase our 
cooperation, bring us back to the law and suggestions to 
Congress in helping to get the agencies to honor the law.
    [The prepared statement of Mr. Coghill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Senator Coghill, thank you. I appreciate that 
you have outlined in your written testimony so many of these 
suggestions. We will have an opportunity to pursue those during 
questions, so thank you.
    Mr. Arno, welcome to the Committee.

   STATEMENT OF ROD ARNO, EXECUTIVE DIRECTOR, ALASKA OUTDOOR 
                            COUNCIL

    Mr. Arno. Thank you, Madam Chairman, Senator Cantwell, 
Senator Gardner, I'm honored to address you on the 35th 
anniversary of the signing of ANILCA.
    I'm testifying today on behalf of the Alaska Outdoor 
Council. The Alaska Outdoor Council thanks the Senator from 
Alaska for the invitation to speak to the Committee on how 
ANILCA has affected our 10,000 members and many other outdoor 
folks who hunt, trap, fish and recreate on public lands in 
Alaska.
    The Alaska Outdoor Council is a 55-year old, statewide, 
conservation organization in the true sense of the word. Our 
membership personally participate in hunting, trapping and 
fishing on Alaska's public lands.
    Alaska is unique in the world. I know that from experience 
from being a wilderness guide for 40 years in Alaska as well as 
a world traveler. Alaska owes its uniqueness to a variety of 
reasons, mainly its geographic location.
    Alaska is at the apex of the Pacific Tectonic Plate 
drifting north at four centimeters a year overriding the North 
American plate. The result of that is the highest vertical 
mountain in the world, now named Denali. The tectonic action is 
responsible for making Alaska resource rich, both underground 
with oil, gas and mineral deposits and on the surface with 
wildlife habitats and majestic views.
    Alaska's geographic location is also responsible partly for 
the low density of human population. Long, dark winters, 
weather extremes, habitats rich in plant life including 
mosquitoes, all of which has kept Alaska less developed in most 
of the world land mass. For its size Alaska has a very small 
population of less than 750,000 people. The number of trappers, 
hunters and anglers has not increased in Alaska over the last 
35 years since the passage of ANILCA.
    No doubt about it, the passage of ANILCA was a great 
compromise between relatives of Alaska's first immigrants from 
Asia, the continent, and subsequent waves of immigrants from 
both east and west who live in Alaska today. With Alaska 
becoming under the control of the U.S. Government, the burden 
of determining who got the land fell upon the U.S. Congress.
    As far as the state-owned lands, it's not like the State of 
Alaska has intentions of clear cutting all the timber or 
extracting all the mineral resources on the 102 million acres 
given at its statehood. Alaska has already created over eight 
state parks out of the land conveyed it by Congress. At nearly 
1.6 million acres the Wood River-Tikchik State Park is the 
largest state park in the United States. The State of Alaska 
has already put a half a million acres in wilderness from its 
land.
    What's not intact is the people of Alaska. For those of us 
who have chosen to make a wild food harvest part of our way of 
life, we are in conflict with each other over a dwindling 
harvestable surplus of game on Federal lands. This conflict is 
exacerbated by the Federal land managers' relentless efforts to 
restrict motorized access on and across 60 percent of Alaska 
through Federal rulemaking.
    While most of the Federal conservation lands created by 
ANILCA have for their purpose to provide for subsistence uses, 
the Department of the Interior's land managers continue to 
allow harvest levels of game to decline because their mandates 
don't include active game management. Less game, less 
harvestable surplus equals more conflict among Alaskans who 
want to provide themselves and family with a wild food harvest. 
This is not what we Alaskans believe the intent of the 
compromise that created ANILCA was to be.
    The U.S. Department of the Interior needs direction to 
allow Alaska's fish and game managers to manage on a 
sustainable basis to meet subsistence uses. Congress should 
amend ANILCA to make it clear Department of the Interior 
mandates do not supersede Alaska's ability to manage its fish 
and game.
    Once harvestable surplus declines, Title VIII of ANILCA 
implemented by the Federal Subsistence Board causes all non-
Federally qualified resident subsistence users of Alaska and 
all nonresidents to lose their equal access to publicly-owned 
resources. The Department of the Interior has recently adopted 
rules that divide Alaskans based solely on their place of 
residency and no other criteria.
    The U.S. Constitution 14th Amendment equal protection law 
does not allow that type of rulemaking. In no place else in the 
nation has Congress passed laws where new immigrants to the 
country don't share the same rights and privileges to public 
resources just because of where they chose to live. Alaska 
recommends that Title VIII of ANILCA with rule priority public 
resources be reviewed to determine its constitutionality.
    Thank you for your time and consideration of how the 
Department of the Interior implementation of ANILCA is 
negatively affecting the wellbeing of Alaskan citizenry.
    [The prepared statement of Mr. Arno follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Arno.
    Ms. Brown, welcome.

STATEMENT OF VALERIE BROWN, LEGAL DIRECTOR, TRUSTEES FOR ALASKA

    Ms. Brown. Good morning, Chairman Murkowski, Ranking Member 
Cantwell, Senator Gardner. I'm Valerie Brown, Legal Director 
for Trustees for Alaska, a nonprofit public interest law firm 
in Anchorage, Alaska. I appreciate the opportunity to address 
you today on an issue that is important to me and to Alaska and 
to everyone in the country.
    The Alaska National Interest Lands Conservation Act is 
sometimes called the most important piece of conservation 
legislation in the 20th century. I realize that view is not 
shared by some Alaskans, including some people here today, but 
I believe that it's true and I'm pleased to speak to its many 
benefits just 1 day after the 35th anniversary of its adoption.
    There are many other groups of Alaskans, as Senator 
Murkowski noted, that benefit from Alaska that aren't here 
today, subsistence users, fishermen, recreational based tourism 
are just a few. And I'm sure that they look forward to 
participating in future hearings on ANILCA oversight as well.
    When I moved to Alaska in 1988 ANILCA was just seven years 
old. There had been many years of political wrangling leading 
up to its adoption. By the time I arrived in Alaska though some 
people were starting to change their mind about that.
    For example, in 1975 in the midst of the controversy over 
one of the earlier versions of ANILCA, the City Council of 
Seward passed a resolution opposing the creation of Kenai 
Fjords National Park. But just five years after ANILCA was 
passed Seward had seen so much economic growth and 
diversification it rescinded its resolution and it's now the 
gateway to Kenai National Park, excuse me, Kenai Fjords 
National Park and it reaps incredible economic benefits from 
that.
    In total ANILCA took 104 million acres of Federal land and 
dedicated them to specific conservation purposes with mandates 
for long-term protection of geographic features, cultural 
traditions and ecological processes of the nationally owned 
lands. They include Denali National Park which, despite its 
remote location and the expense of getting there, is the third 
most visited park in the entire National Park System.
    In many places ANILCA allows some commercial use such as 
timber, fishing, guiding and other tourism-related activities. 
And it guarantees a subsistence use priority for rural Alaskans 
as well as for other traditional uses and for private land 
inholders. But ANILCA left an important land management 
decision unmade in the Coastal Plain of the Arctic Refuge. 
Congress recognized that the area was vital to the Porcupine 
Caribou herd, polar bears and more than 250 other species that 
rely on it. ANILCA did not decide the permanent land management 
for the coastal plain. Thirty-five years later that decision 
remains unmade.
    Yesterday the Senate Arctic Refuge Wilderness bill was 
introduced with a total of 34 senators signing on expressing 
historic support for wilderness designation for the coastal 
plain of the Arctic Refuge, and we believe Congress should act 
to pass that bill. Designation of the coastal plain as 
wilderness is long overdue.
    I've been to the coastal plain and it's an incredible 
place. I support the Gwich'in people who call the coastal plain 
the sacred place where life begins. In addition to jeopardizing 
the biological heart of the Arctic National Wildlife Refuge 
drilling in the coastal plain won't solve Alaska's economic 
problems which stem from the fact Alaska is too dependent on 
oil development. Sacrificing our most iconic and important 
public lands for oil takes us in the wrong direction.
    This hearing is happening at the same time world leaders 
are gathered in Paris at the U.N. conference on climate change. 
The issue of climate change is even more important for Alaskans 
because we suffer affects from climate change at twice the rate 
of the rest of the nation. We are warming faster, our 
coastlines are eroding and our permafrost is melting.
    We cannot drill our way to a solution for climate change 
and more drilling will not protect our state from its impacts. 
It will do the opposite. The areas protected by ANILCA help us 
deal with the impacts of climate change by providing a living 
laboratory to study and find solutions to offset the impacts of 
climate change while giving wildlife and communities the 
opportunities to adapt.
    Today, one day after ANILCA's 35th Anniversary, we should 
celebrate Congress' forethought in making conservation a 
priority on those 104 million acres in Alaska's national lands. 
These lands provide the basis for sustainable economic 
practices and they protect traditional subsistence uses and 
they are a national heritage which benefit all Americans but 
also all Alaskans.
    Thank you for inviting me today, and I look forward to 
answering your questions.
    [The prepared statement of Ms. Brown follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Brown.
    Mr. Kindred, welcome to the Committee.

STATEMENT OF JOSHUA KINDRED, ENVIRONMENTAL COUNSEL, ALASKA OIL 
                       & GAS ASSOCIATION

    Mr. Kindred. Thank you, Madam Chair, Ranking Member 
Cantwell, Senator Gardner. I appreciate the opportunity to 
address the Committee today regarding the implementation of 
ANILCA and the role that is has played on oil and gas 
development in Alaska.
    In reality oil and gas operations in Alaska are somewhat 
academically and practically removed from traditional ANILCA 
issues. However, that is simply because ANILCA issues affecting 
industry often resolve for better or worse absent private 
sector involvement. Nevertheless ANILCA has over the past 35 
years effectively dictated the scope of natural resources 
development in Alaska.
    It is vital to understand that ANILCA represented 
substantial congressional and ideological compromise 
acknowledging that considerable conservation withdrawals could 
not be achieved without also accommodating the interests of the 
State of Alaska and Alaska natives.
    As for the formal objective, ANILCA effectively doubled the 
size of the nation's national park and refuge systems and 
tripled the amount of land designated as wilderness. And 
although issues remain on the periphery, this must be 
considered a great success from an environmental standpoint.
    However, as the other primary goal of ANILCA 35 years 
later, the optimism of those who drafted ANILCA is starkly 
contrasted by numerous examples of the subsequent erosion of 
Congress' vision of collaborative, unique and balanced 
legislation.
    Now it is impossible to discuss ANILCA's proposed endeavor 
of protecting the economic and social needs of the State of 
Alaska and its people without discussing oil and gas 
development. Historically proceeds from oil and gas development 
provided millions of dollars to the State of Alaska, 
representing nearly 90 percent of the state's unrestricted 
general revenue. ANILCA does play a substantial role in the 
industry in Alaska, if for no other reason, it dictates those 
lands available for exploration and subsequent development.
    Of course it would be imprudent to discuss the interplay of 
ANILCA in oil and gas development without mentioning Section 
1002 which mandated the coastal portion of the Arctic National 
Wildland Refuge be studied and provided for a potential path to 
oil and gas exploration and development. In 1987 following 
detailed and comprehensive studies, the Department of the 
Interior recommended opening the area for oil and gas 
exploration and development. And to date, decades later, even 
absent congressional action, there's little room to debate the 
extraordinary resource potential of ANWR's coastal plain which 
USGS estimates to contain over ten billion barrels of 
recoverable oil.
    Regardless of ANWR's potential and politically charged 
status it highlights the manner in which ANILCA discourages 
greater oil and gas exploration and development in Alaska. For 
if the Federal Government is not willing to sanction oil and 
gas operations in arenas congressionally envisioned for 
development where the resource potential is known, what 
incentive does Alaskan industry have to broaden their search to 
areas of unknown resource potential?
    Another aspect of ANILCA that serves to undermine resource 
development pertains to Title 11 in the oil and gas context the 
key examples that pertain to proposals to transit, sorry, 
transport North Slope natural gas to market. The Alaska 
Pipeline Project, or APP, a joint undertaking of Exxon Mobil 
and Trans Canada, that would have resulted in a natural gas 
pipeline from the North Slope through Canada to Midwest 
refineries and markets, concluded that it could neither 
navigate the procedural requirements of ANILCA Title 11 nor 
successfully accomplish a land exchange. The APP is no longer a 
viable project and plans for transporting North Slope gas have 
shifted to the Alaska LNG project which is a proposal supported 
by Exxon Mobil, ConocoPhillips, BP and the State of Alaska.
    Alaska LNG is also struggling to envision a successful path 
through ANILCA Title 11 because a small seven mile portion of 
the most direct pipeline around will follow the park's highway 
as it traverses Denali National Park.
    It is difficult to succinctly summarize the problems posed 
by ANILCA Title 11 for complex projects such as Alaska LNG. 
Generally stated Title 11 establishes an inflexible and likely 
impractical process for obtaining Federal permits for complex 
projects such as APP and Alaska LNG. Title 11 establishes tight 
deadlines and mandates simultaneous application, environmental 
review and permitting decisions in a manner that cannot be 
rationalized for a complex project proceeding through a phased 
design and financial approval process.
    A second set of issues that Title 11 mandates and 
additional substantive requirements that fundamentally alter 
the authority of any involved Federal agency to condition or 
disapprove a proposed project. Under Title 11 each involved 
Federal agency must make detailed findings regarding, among 
other things, economic feasibility, alternative routes, social 
economic subsistence and environmental impacts and public 
values. The result being that if merely one agency disapproves 
an application for the project, the project is deemed 
disapproved in its entirety. These provisions render the 
process unduly, unpredictable and risky.
    None the less, these misgivings and issues, while crucial, 
do not represent an indictment of ANILCA. Rather they serve to 
highlight that the design flexibility inherent to ANILCA has 
failed to come to fruition. In that vein and as it relates to 
natural resources development in Alaska I would advocate the 
Federal agencies embrace the collaborative design found in 
ANILCA. We must strive to capture the balance originally 
envisioned by the drafters and not forget the broad concessions 
to development articulated in its provisions.
    Thank you.
    [The prepared statement of Mr. Kindred follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Kindred.
    Ms. Seidman, welcome.

STATEMENT OF ANNA SEIDMAN, DIRECTOR OF LITIGATION, SAFARI CLUB 
                         INTERNATIONAL

    Ms. Seidman. Thank you, Chairman Murkowski.
    I testify today on behalf of Safari Club International, the 
most influential hunting organization in this country. Safari 
Club International has over 48,000 members and 177 chapters 
throughout the world, two of which are in Alaska. Safari Club 
members are passionate hunters and conservationists who live in 
Alaska or travel to Alaska for the purpose of enjoying the 
state's world class hunting opportunities. They hunt for both 
subsistence and non-subsistence purposes and all are affected 
by ANILCA.
    Sixteen and a half years ago I joined Safari Club to pursue 
a lawsuit that Safari Club had filed to challenge the Federal 
Subsistence Board's Administration of ANILCA. Parenthetically, 
it was that ANILCA lawsuit that later led Safari Club to 
establish a multi attorney litigation department that has 
pursued myriad lawsuits to protect hunting and sustainable use 
management throughout the world.
    As a result of Safari Club's ANILCA lawsuit, the Federal 
Government acknowledged its obligation to fairly balance the 
regional advisory councils with representation from both 
subsistence and non-subsistence interests. Today, just as we 
did back in 1999, Safari Club understands that ANILCA's purpose 
is to provide a balance between the needs of the user groups 
who must share Alaska's resources. Congress tasked the 
administrators of ANILCA to conserve those resources to make 
sure that ANILCA's hunters have wildlife to hunt and to fulfill 
subsistence and non-subsistence needs on Federal lands in 
accordance with sound management and recognize scientific 
principles of fish and wildlife conservation.
    Congress did not intend for the Federal agencies to operate 
as though they alone had responsibility or authority to make 
decisions about how to conserve and manage ANILCA, sorry, 
Alaska's wildlife resources. Congress directed the Federal 
administrators of ANILCA to cooperate with state agencies among 
others.
    Recently the National Park Service and the U.S. Fish and 
Wildlife Service have chosen to ignore congressional intent and 
have each invoked ANILCA as the basis of decisions to interfere 
with Alaska State wildlife management and to deprive Alaska's 
subsistence and non-subsistence hunters of hunting 
opportunities.
    The National Park Service finalized regulations on October 
23, 2015 that prohibit hunting methods for wolves, bears and 
coyotes that are often practiced by subsistence hunters. The 
regulations demonstrate that the Park Service intends to be the 
final judge of what are and what are not ethically appropriate 
methods of hunting regardless of whether the State of Alaska 
deems such methods legal. Instead of cooperating with the State 
of Alaska in addressing this difference of opinion, the 
National Park Service handed out edicts and then moved ahead 
with regulatory prohibitions based on Park Service's assessment 
of what constitutes appropriate hunting in Alaska.
    The U.S. Fish and Wildlife Service is about to take similar 
action. The agency has announced plans to utilize natural 
diversity to manage wildlife on national wildlife refuge lands 
in Alaska instead of recognizing ANILCA's goal of providing 
wildlife resources for the needs of Alaska's hunting public, 
the Fish and Wildlife Service intends to apply a hands off 
approach to wildlife management. Rejecting the State of 
Alaska's needs to balance its predator and prey populations the 
Fish and Wildlife Service prefers to allow growing predator 
populations to decimate the very prey populations upon which 
Alaska's hunters depend.
    The service chooses to completely ignore the words of 
Senator Ted Stevens, one of ANILCA's key drafters, who 
explained that natural diversity was not intended to prevent 
the service from acting for the benefit of the use of wildlife 
populations by man as part of the balanced management program 
mandated by ANILCA. Like the National Park Service, the Fish 
and Wildlife Service has ignored its obligation to cooperate 
with the State of Alaska and instead is adopting rules that 
contradict and undermine state regulations and statutory 
wildlife management mandates.
    For these reasons on the occasion of ANILCA's anniversary 
Safari Club asks this Committee to remember the original intent 
of ANILCA's drafters to remind Federal agency administrators of 
their ANILCA duties to manage wildlife resources for the 
benefit of Alaska's hunters and to make certain that resource 
management decisions are made in cooperation with the state 
agency that is responsible for statewide conservation and 
management of wildlife. Only through an approach that maintains 
a balance between providing for the needs of the hunting 
communities and ensuring long term survival of all of Alaska's 
wildlife resources can ANILCA's obligations be fulfilled.
    Thank you very much.
    [The prepared statement of Ms. Seidman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Finally, we will hear from Mr. J.P. Tangen, welcome to the 
Committee.

           STATEMENT OF J.P. TANGEN, ATTORNEY AT LAW

    Mr. Tangen. Thank you, Madam Chairman. I'm honored to 
address you on this, the 35th anniversary of the signing of 
ANILCA. My name is J.P. Tangen. I'm an attorney in active 
practice in the State of Alaska.
    I was first drawn to Alaska in 1975 in no small part 
because of the pending determination that up to but not to 
exceed 80 million acres of unreserved public lands in Alaska 
should be withdrawn for addition to or creation as units of the 
National Park Forest Wildlife Refuge and Wild and Scenic Rivers 
system. To a young attorney advisor working for the Department 
of Commerce here in DC, 80 million acres of land sounded like 
an awful lot of land. Accordingly I relocated to Alaska and 
have fought in the trenches up there ever since.
    My primary vocation over the past four decades has been on 
behalf of the mining industry although I did serve as Alaska's 
Regional Solicitor for the Department of the Interior in the 
early 1990's. I've also served for many years as Co-Chairman of 
the Alaska Miners Association Federal Oversight Committee. And 
on that committee, in that capacity, I've participated in the 
analysis and comments on literally hundreds of initiatives from 
Federal land managing agencies that would unilaterally burden 
or preclude development of Federal, on Federal land, in Alaska 
in direct violation of the clear language of ANILCA.
    In the year 2000 I had the privilege of participating in 
the publication of a collection of essays entitled, ``d(2), 
Part 2, A Report to the People of Alaska on the Land Promises 
Made in ANILCA, 20 years later.'' I recommend the book to you 
for your bedtime reading and anybody here, for that bedtime 
reading. It's relatively short, easily digested.
    Among the articles included in d(2), Part 2 is the 
testimony that Steve Borell, then Executive Director of the 
Alaska Miners Association delivered before this very Committee 
on August 10, 1999. It can be seen by a review of his testimony 
that there have been, there were many open wounds on the table 
20 years after the passage of ANILCA. And everything Mr. Borell 
said then remains true today.
    But the egregious misconduct of the U.S. Forest Service, 
Bureau of Land Management, the Park Service, the Fish and 
Wildlife Service has been a compounding of the ensuing 15 
years.
    I was asked to offer testimony at this time on ANILCA 
including perspectives on the Act's impacts and suggestions for 
improvements to the Act. I'll attempt to do so in the most 
positive way possible.
    When discussing ANILCA the primary concern of many 
Alaskans, certainly those in the resource development industry, 
is that ANILCA was held out to be a great compromise with two 
cornerstone guarantees. First that there would never be any 
more withdrawals of public land from the economic and social 
needs of the State of Alaska and its people, that language is 
in Section 101 of the Act. And second that under Section 1110 
in exchange for restrictive burdens on what turned out to be 
well over 100 million acres of land, Federal, in Alaska, there 
would be adequate and feasible access for economic and other 
purposes to the concerned land.
    There are many other promises contained in ANILCA, as 
Senator Ted Stevens observed in his preface to d(2), Part 2, 
during the 20 years after passage Alaskans have witnessed many 
disappointments and continue to do so.
    Pursuant to mandate I will list some of the problems that 
have emerged over the past 15 years and are ongoing to this day 
and then I'll propose some suggested remedies with the hope 
that this bitter battle can be brought to a conclusion before 
resource development on Federal land in Alaska is totally 
destroyed.
    The resource development of the National Park Service has 
employed a variety of tools to ensure that valid existing 
rights to developmental resources in NPS units in Alaska are 
never developed. In the case of Orange Hill, for instance, an 
extremely valuable copper deposit in the Wrangell-St. Elias 
National Monument comprising of patented land was deprived of 
access by the Park Service on one hand, on the other because it 
had no authorized access the owners were denied adequate 
compensation for it.
    Despite two--the owners literally went through the 
Administrative process twice, to Congress twice and to the 
courts twice seeking redress and finally they gave up.
    Don't assume that because of this specific inholding is 
referred to an isolated incident however. Comparable sagas 
occurred in other areas of the Wrangell-St. Elias National 
Monument, Denali National Park, Glacier Bay, Cape Krusenstern 
and Bering Land Bridge, for instance. The methodology used by 
the Park Service is predictable.
    First a permit must be required. Then an environmental 
impact statement must be prepared for which the applicant is 
often asked to pay. The permit is denied and the applicant is 
told it can never get a permit, no matter what he says, and 
should sell the property to the Park Service. The Park Service 
approves. The appraisal is conducted which disregards any value 
for the resource. The applicant turns to the courts where an 
unsympathetic Federal judge is arbitrarily constrained by APA 
procedures. At the instance of the Department of Justice, 
attorneys with an agenda rule against the applicant and the 
applicant is reduced to appealing to the Ninth Circuit which 
never saw a resource development project it didn't want to 
scuttle. And this dance has various mutations, but the result 
is always the same.
    A similar exercise occurs with regard to access. The 
National Forest Service, for instance, has the right and 
obligation to permit logging roads through the Chugach National 
and Tongass National forests. And although referred to as 
logging roads they also are used by miners, hunters and local 
communities, many of which are dependent upon logging and other 
resource development projects to support their very 
infrastructure. Both the national forests are known to be 
replete with marketable timber and mineral resources. However, 
as a result of the stridence of the Forest Service and the 
APA's insistence that the agencies are the best arbiters of 
their own mandates, the ability of Alaskans to use the forests 
for resource development is vitiated. It's not to suggest the 
NPS is any better with regard to access. Witness the Hale v. 
NPS case or the Sturgeon case or Fish and Wildlife Refuges 
service is sympathetic, witness the King Cove road problem.
    The BLM, in its unique way, has determined to create 
gigantic areas of critical environmental concern that have all 
the earmarks of barring restrictions to land use and access 
across public lands even though there's no particular 
justification for doing so other than their planning process. 
The BLM most recently dedicated teams of people with apparently 
unlimited resources to prepare reports that run to the 
thousands of pages to gut the purpose and language of ANILCA. 
The expense of analyzing and opposing these works is 
astronomical and ironically doing so is a total waste of time 
because of the critical comments fall on deaf ears and the 
agency does what it pleases without fear of reprisal.
    In summary, although blocking access across development of 
Federal lands was thought to be clearly precluded by ANILCA, 
these preclusions have been ignored or are actively resisted by 
the land managing agencies.
    I'm well over my time. I'm sorry, I apologize for that.
    I've listed a dozen recommendations with regard to actions 
that the Senate should take. This Committee has a vested 
interest for 35 years, for 40 years, this Committee has had a 
vested interest in ensuring that Alaska was being treated 
fairly by this.
    I'm happy to answer any questions, but the bottom line is 
after 35 years it's time that something happened to protect the 
interest of the Alaska people.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Tangen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Tangen.
    Again, I appreciate the written testimony where you have 
outlined that. Let's hope that in the questions here we have an 
opportunity to lay some of those on the table.
    I would like to start with you, Governor Walker, from kind 
of the 30,000 foot perspective. You, I think, have articulated 
well what it is that your administration and certainly the 
congressional delegation here supports in terms of our 
opportunities to access just a tiny, tiny portion of ANWR, that 
area that has been set aside recognizing its extraordinary 
potential.
    You talk about compromise in a measure. Alaskans' 
willingness to say, okay, here is an area that has been 
designated for its energy potential, for its oil and gas 
potential, but all we are seeking to access is four percent. 
Yet when you think about the areas that Alaska has available 
for oil exploration and opportunity, some 86 percent of what we 
have or what we understand to have regarding our oil, is placed 
off limits if this Administration's policies are finalized 
here. We have seen some of those and many of them were talked 
about here today.
    It has been suggested that perhaps Alaska is too dependent 
on oil. You have outlined a little bit of the situation that we 
are currently in as a state with a pipeline that is less than a 
third full, that as Governor you are dealing with a budget that 
is not just having impact on Alaskans today. But if we do not 
invest in our young people through education, if we do not 
invest in our infrastructure for today, what future do we have 
tomorrow?
    I would like for you to respond to the suggestion. It is 
not just from the one comment that we have heard today. There 
are many who believe that Alaska should be that special place 
where we just keep it in the ground. When I say ``keep it in 
the ground,'' I am not referring to just the oil there. We know 
that there are those who believe very strongly that ``keep it 
in the ground'' means that that tree that came from the Tongass 
National Forest, no trees should be harvested in the forest, 
none of our mining resources whether our gold or copper or zinc 
or whatever, coal, should be harvested.
    As the Governor of the State of Alaska how do you respond 
to those who would suggest that our state is too beholden to 
oil, that we need to rely on something other than our natural 
resources?
    Governor Walker. Thank you, Senator Murkowski, for that 
question.
    You know, I get that question a fair amount. My response is 
this. We are a resource state. We're the most resource rich 
state in the nation. That was the deal when we became a state 
that we'd be able to responsibly develop those resources, all 
of the resources, not any particular one.
    Yes, we'd love to have a widely diversified economy in 
Alaska and we will, but to do that we need to get our cost of 
energy down. That's what the AK LNG project and our natural gas 
project developed our gas to the world market that's going to 
help that.
    Yes we have a robust tourism market in Alaska. That's 
wonderful. We can't live off of any particular one of those. We 
need a blend of those.
    One of the biggest challenges in all exports in Alaska 
isn't if you're going to find oil or if you're going to find 
gas, it's if you can get a permit.
    Governor Dalrymple in North Dakota talked about the 
permitting process. He's frustrated. It takes almost a month to 
get a permit there. Governor Fallin in Oklahoma talked about 
the number of days that it takes to get a permit there, and 
Governor Abbott in Texas talked about the number of days it 
takes.
    It takes us over six years to get a permit, and you don't 
know if you're going to get it during that entire process. So 
that's what's different in Alaska.
    In Wyoming, which is about the same size as the North Slope 
area, they have drilled 16,000 wells. We have drilled less than 
600 wells in Alaska, and yet we're the most prolific oil/
petroleum basin in the world yet 600 wells versus 16,000 is 
permits, the access.
    I just can't let this opportunity go by without making some 
comment about the Izembek Road. We can't have access between 
communities. I know you are a champion of that, and I applaud 
you for that. And I thank you for your leadership on that. But 
we can't connect our communities with a road for health and 
safety purposes and people are being helicoptered out during 
the most inclement weather conditions you can imagine. There's 
something wrong with the system that we cannot connect a 
community by road because we're being stopped by the Federal 
process.
    You know, I'm a very strong states' rights person. And it's 
time that we stand up and take control of our own destiny, of 
our own future and I am one of the blessings of being a 
nonpartisan independent is that I answer to 730,000 Alaskans as 
you do. I have a job to do, and we're going to get it done in 
spite of some of the push back we may get from the Federal 
Government.
    The Chairman. One more question, just specific to oil and 
perhaps to oil and gas, including Mr. Kindred here.
    What happens to the State of Alaska, Governor Walker, if we 
are not able to continue operation of the Trans-Alaska 
Pipeline?
    Governor Walker. Well, it does generate about 90 percent of 
our revenue, or it did before the drop in the price of oil, so 
about 70 percent of our revenue would go away in the State of 
Alaska. And that would, you know, sitting next to some of the 
most prolific oil areas in the state, it would be absolutely 
devastating and it would be unprecedented.
    It would be unprecedented as a country that any state would 
have that kind of a financial impact to us, not because of lack 
of resources but lack of access to resources. Everybody in 
Alaska is an environmentalist at some point or we wouldn't live 
there. It's the most beautiful state, as you well know.
    We don't want to do it to the detriment of the environment. 
But there's also an economic climate that we need to be mindful 
of that our rural Alaska areas, they have every right to 
education, every right to have a flush toilet and electricity. 
And we can't do that without developing our resources.
    So what it would do to answer specifically your question? 
It would shut down Alaska. It would turn Alaska into something 
that we have not seen since prior to statehood. And what a 
shame that would be because of lack, not a lack of resource, 
but lack of access to the resource. That's unacceptable, and 
that will not happen during this Administration.
    The Chairman. Well, I thank you for your leadership on 
that.
    Not more than a couple months ago, we had an opportunity to 
weigh in on a measure that would effectively lift sanctions on 
Iran to allow Iran to put their oil out on the world market. 
Yet we will deny it from U.S. soil from Alaska. It just seems 
incredible to even think about that.
    I wanted to ask you a question, Mr. Kindred, because you 
raised the issue. You spoke directly to the issue with regards 
to Title 11 and how within Denali Park because we have been 
working to try to ensure that when we have an opportunity to 
move our gas that we do not have limitations in terms of 
access. So we moved through this Committee, through this 
Congress, a provision that would allow for a natural gas 
pipeline to cross through a segment of Denali.
    You have indicated that this process is ``inflexible and 
impractical,'' I think were your words. Is this fixable? 
Dealing with the Section 11?
    Mr. Kindred. I think it is fixable but it's difficult.
    The Chairman. Title 11?
    Mr. Kindred. To--because it's not an indictment of the 
intent. Part of the problem is that when it comes to Federal 
agencies, as Governor Walker highlighted, the response time is 
less than ideal. And when you talk about multiplying the number 
of agencies that you have to get approval from, you know, 
there's a great deal of angst for developers in Alaska when 
they know that they have to rely on a Federal agency to grant a 
permit.
    I think part of the problem is academically it makes a lot 
of sense that you have this, sort of, one stop shop where you 
can get the approval you need from the litany of agencies. But 
part of the problem is that it creates temporal issues. It's 
hard to do it on the right timeline.
    But I think it's people are also pessimistic about the fact 
that, you know, getting one agency's approval is difficult 
enough at times. And expecting a wide spectrum of agencies to 
all approve within a fairly short timeframe I think what you'll 
see is that companies aren't even going to take that path. 
They're not even going to try. They're going to try to figure 
out a different way to do it.
    I think that's the lesson in and of itself is that if 
there's supposed to be an inherent flexibility and there's 
supposed to be an avenue for companies to take and they're 
choosing to try any other method. I think that, in and of 
itself, is an indictment of the process.
    As far as how to fix it, I think there are people who are 
far more intelligent than myself who can give some insight. But 
I think part of the problem is it's not necessarily the Federal 
regulators in Alaska. It's the fact that it's people 4,000 
miles away who are ultimately making the decision that may be 
ideological in nature as opposed to practical. We are losing, 
day by day, year by year, faith in the fact that reasonable and 
prudent answers will come.
    We've seen it time and time again in oil and gas 
operations. And I think there's just, for lack of a better 
term, a lack of faith that there will be fidelity of process. 
And so it's not, you know, to repeat, I don't think it's that 
it was ill intended. It's just I don't think it can work in 
practice.
    The Chairman. Well, it seems to take us back to that 
promise that we would not be turned into this, ``permit 
society.'' That was something that Senator Stevens was 
concerned about. Based on what I hear when I am talking to 
folks back home, we turned into that permit society some time 
ago. I think it was you, Senator Coghill, that used the term, 
that opportunities are being strangled because of this.
    Let me ask, and I will throw it out to several of you 
because as I spoke in my comments, and I think I heard many of 
you refer repeatedly that ANILCA was this compromise and that 
the balance that was sought through this compromise has been 
lost. It has been eroded, and my perception of it has been that 
it has been eroded because the agencies are seeking to define 
it as they wish rather than as it was written.
    As we think about how you move from original Congressional 
intent to where we are some 35 years later, I think, as we look 
to how we can address the fixes, it is important to understand 
how we came to where we are right now.
    Just this year, again, we all know that the Fish and 
Wildlife has proposed another 12 million acres of wilderness 
there in ANWR, and the agencies are arguing. I will probably 
direct this to you, Senator Coghill, that their Organic Acts 
and FLPMA, the Federal Land Planning Management Act, allow them 
to make these recommendations, that it is not contrary to 
ANILCA here but that we have the ability within the agencies to 
basically provide for these interpretations and allow for such 
recommendations to be made.
    Mr. Tangen, given the history that you have with ANILCA, I 
am interested in your views as well.
    We talk a lot about administrative creep, regulatory creep 
and overreach. Is that what we are dealing with here or is it 
more pernicious? It's a great word, pernicious.
    Go ahead, John.
    Mr. Coghill. Senator, thank you very much.
    The Organic Acts go back quite a ways. We had the Alaska 
Organic Act and then the Federal Land Policy and Management Act 
(of 1976), FLPMA, but ANILCA was meant to specify some very 
specific land uses and guarantees to the state which were not 
outlined in FLPMA. In fact they were very general.
    So I think the answer to that question is in the balancing 
of the interest you found a huge interest in the conservation 
of the lands and the preservation of lands which many people in 
Alaska were okay with. It's just that they didn't want their 
livelihood taken away.
    So on the one hand you have people who, through the d(2) 
lands discussion all the way up through the passage of ANILCA, 
we're looking at okay, conservation, preservation. We 
understand the beauty that we live in. As a matter of fact many 
of us in Alaska have done very well both at the state level and 
at the local level.
    But we have to look at the land in Alaska as productive 
land and land for conservation. So we want to conserve our 
forests, for example, but we don't mind harvesting them. But 
the preservation wilderness designations within say, Tongass, 
have continually crept in and taken over guarantees that were 
even allowed under the Tongass National Forest ruling.
    So I think ANILCA was very, very specific where FLPMA was 
very, very general. It was meant to overrule and specify in 
many places.
    So, some of the things that I think Alaska felt that we got 
left out on was when we put together in the ANILCA Act that 
there would be a Land Use Council where Alaskans would be able 
to sit at the table. The tethering kind of got loose in there, 
and we probably would have been able to have that discussion 
about the difference between what's going on with the Federal 
Land Policy Management Act and ANILCA there.
    But as Mr. Tangen brought up, we had a hard time getting 
that discussion even with the Land Council. But since the Land 
Council has been sunsetted, I think we have lost the ability to 
even sit at the table with agencies and remind them of the 
ANILCA promises.
    The Chairman. But it is your belief, is it not, that were 
we to reinstate the Alaska Land Use Council that that would be 
a forum for us to engage? I think, Governor, you had stated 
that as well.
    Senator Coghill. I think that's one of the answers.
    Senator, I do believe that's one of the answers that's 
going to help tie us back to the law.
    The Chairman. Okay.
    Mr. Tangen.
    Mr. Tangen. Yes.
    Senator, I think that I obviously agree with, you know, 
Senator Coghill's comments. As an attorney you'll appreciate 
the fact that as a general proposition of law a later and more 
specific law it governs an older and more general law. And so, 
therefore, each of the Organic Acts of the various land 
managing agencies must be read through the filter of the 
language in ANILCA. And I think that it is not a significant 
burden on the agencies for them to certify Federal register 
notices, for instance, that they, the actions the agency is 
about to take complies with the ``no more clause'' and the 
equal--in the access provisions of ANILCA.
    I think that the main, you know, one of the main problems 
that we have and again I think tailgating a little bit on what 
Senator Coghill said, is that the Forest Service has no more 
foresters in it. They're land--they're planners. The BLM has no 
more mineral exports or land managers in it. They're planners.
    And those planners have literally unlimited resources to 
spend all their days compiling huge documents which cannot be 
reasonably analyzed, especially by the private sector where we 
have other things to do. And even if their documents are 
analyzed and they're criticized, etcetera, we're in a situation 
in which they are, our comments, fall on deaf ears and the 
documents proceed to gather dust on the shelf. We have 
literally no major opportunity to redirect the way that the 
land managing agencies are fulfilling their perceived 
responsibilities.
    Of course, I agree very much the Land Use Council ought to 
be revitalized. I think that it's an incredibly critically 
important function to have people at that level who are 
communicating directly with regard to what the law requires 
concerning our state.
    The Chairman. We can suggest that this is regulatory creep 
or perhaps it is just a failure to understand the law, but 
ANILCA is unique to Alaska. You have a lot of decisions that 
are made here, 4,000 miles away.
    You have new people that are coming into an agency that not 
only do not know Alaska, but they do not know the laws 
applicable and they do not understand ANILCA. We have lost some 
of that institutional knowledge.
    When you were here as solicitor many years ago a lot of 
people understood what was going on because it was current, and 
we have ANILCA sensitivity training that goes on within the 
agencies. The question is if we were to ensure that there is 
greater understanding of the law do we gain the respect? I 
think it was you, Senator Coghill, that said that basically 
Alaska and ANILCA is being disrespected. Is it disrespect 
because they do not know? We have just had too much separation 
of time. Or is it knowing disregard of the law?
    Governor.
    Governor Walker. Senator Murkowski, I afraid some know it 
very well and they may--they're acting, but they are acting as 
though it either didn't exist or it exists for a different 
purpose. I'd like to think it's innocent error on some peoples 
part in the agencies, but I don't think that's the case.
    The further you get away from the statements that President 
Carter made at the signing, the more that it's been, sort of, 
that has been dimmed in the, over time, unfortunately. And 
people don't go back and look at what the original intent, the 
original discussion was and the deal.
    You know, a good friend of mine, former Attorney General 
Charlie Cole, always says, here's the deal. And the deal was 
that we would get, it was a balance. It truly was a balance.
    We got something out of that legislation, and that was the 
intent, that was the clear intent. But we have not gotten the 
deal, and so I think there are those that ignore it for 
whatever reason that they want to.
    The concern I have is with 62 percent of Alaska lands 
controlled by the Federal ownership, 66 percent of our park 
land, the nation's parks are in Alaska. When a national law is 
passed it impacts us just unfortunately because of the sheer 
volume of our land that is Federally regulated, Federally 
owned.
    So ANILCA was to, sort of, set us aside, to say here's a 
different view on Alaska for a number of reasons. Number one is 
because of the Statehood Compact. Number two, we aren't 
supposed to live off our resources.
    So we are--it was created to do a set aside so we have, 
sort of, a different deal. We haven't gotten that. And so those 
have come in, some of them come in, and said, openly, how can 
we get more? How can we ignore that ``no more clause'' and how 
can we get more in the way of set asides? And that wasn't what 
the deal was.
    So I don't think it's for lack of knowledge. I think that 
it's some have plenty of knowledge of how the law is supposed 
to work but it's interpreted to their own particular mission 
and that has not been healthy for the economy of Alaska.
    The Chairman. Let me ask you about the state land 
selections. In your testimony you mention the lingering impacts 
of the 160 million acres that are under the public land orders 
that were put in place after 1971 with regards to Alaska Native 
Claims Settlement Act. Now that all those selections have been 
made are the land orders that are still out there are they 
preventing or limiting the state now from making final 
selections, in your view?
    Governor Walker. They are, Senator, they are. It's causing 
some problems. There's some issues associated with surveys and 
processes of surveys that are working their way through the 
companion regulatory processes of the State of Alaska as well 
as on the Federal side.
    That's something that we'd like to accelerate to get the 
rest of the land or what the--at least that part of the deal, a 
discussion about the potential land exchanges. So there's a 
number of things that are ongoing on that regard.
    The Chairman. Okay.
    Senator Coghill.
    Senator Coghill. Thank you, Madam Chair.
    One of the issues on withdrawals is the 17(d) lands that 
now should be withdrawn. In fact BLM actually recommended to 
Congress some years ago that they be vacated. But based on 
those lands still being held and not withdrawn, now we have 
some of these newer issues like the administrative withdrawals 
that are so contrary to Section 13 of ANILCA.
    So yes, I think we have to get those things settled so that 
clear title can be given to the state, the Native Corporations. 
Those things have to be settled. So I think the public 
landowners that are under the 17(d) rule should go away. I 
think Congress should act. That would be one of the 
recommendations that you'll see coming from the Citizens 
Advisory Commission.
    The Chairman. Good.
    Well I appreciate that because it is something that, again, 
if we can't get these fully and finally resolved.
    I note the map that you have behind you, Governor, that 
indicates those lands that are held by the Federal Government 
and those that are state or native lands.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8964.024
    
    And you think about that checkerboard that we deal with as 
a state. When we talk about access, whether it is access for 
the people of King Cove to an all-weather airport for public 
health and safety issues, a ten mile, one lane, gravel, non-
commercial use road does not seem like too much to ask for. But 
again, Senator Coghill, you mentioned the miners in Fortymile 
and the issues that they have with accessing their areas for 
purposes of pretty small mining activity.
    Senator Coghill. Right.
    The Chairman. Some mom and pop operators out there that 
literally are choked off from any access to the resources. Yes?
    Senator Coghill. And on that point there's a redefinition 
and redesignation happening while people have made financial 
and lifelong investments.
    First of all----
    The Chairman. Are areas of critical environmental concern 
(ACEC).
    Senator Coghill. Yes, areas of critical, yes.
    The Chairman. What is that, an ACEC?
    Senator Coghill. Yes.
    That is a new designation that falls under some of these 
land use issues. In fact, one of the recommendations you're 
going to see coming from the Citizens Advisory Commission on 
Federal Areas is that those be stopped. They're contrary to the 
law. They're being used by the agencies to treat areas of 
critical concern with the idea of looking at wilderness 
characteristics. It's another withdrawal, and it violates the 
``no more clause'' so significantly that it's blatant.
    So as the Governor said, these are not areas where there's 
a mistake, but it's actually purposefully driven. However, if 
we did do the Alaska Land Use Council or some ANILCA training 
it would at least have to bring them out into the light because 
this thing is done, as Mr. Tangen said, with reams and reams of 
paper that no person who carries on a normal life can answer.
    In fact I was listening to one of the members viewing the 
testimony today who was actually a nonprofit agency that helps 
people interpret in the local areas what this means to them. 
And it's just--it gets that frustrating.
    But to those miners in the Fortymile area, they're actually 
being redesignated out of existence. It's just wrong.
    The Chairman. We will have an opportunity to bring before 
the Committee, as Senator Cantwell has suggested, some folks 
from within the agencies. I have talked to them about what 
exactly does an ACEC mean, and I am told, oh, no, no, no, this 
is not a withdrawal.
    Well if it walks like a duck and quacks like a duck, it is 
a duck. I think we need to have this conversation in terms of 
you just cannot change the name to say that this is not a 
withdrawal for purposes of access and a significant issue for 
us.
    I want to turn a little bit to the issue of fish and game 
and some of the differences, I think, in philosophy that we are 
dealing with between the state and certainly the current 
Federal game management officials at Park Service and Fish and 
Wildlife.
    Mr. Arno, you have clearly spoken to this in your 
testimony, and Ms. Seidman, you certainly referenced it in 
yours as well. It is as if we have a Federal side that is 
saying what we are doing when we are managing our fish and 
wildlife it is to protect a species versus the state's 
perspective or view that what we are doing is we are managing 
for abundance and opportunity. You have got some clashes that 
we are certainly seeing in play right now.
    You mentioned, Mr. Arno, the Park Service's new policy that 
went into effect just a couple weeks ago designed to prevent 
any manipulation of natural systems that will lead to less 
wildlife for all users whether they are sport hunters, 
fishermen, subsistence hunters and fishermen. It seems that 
this divergence of views or this just different philosophy 
about the management of fish and game on these lands is just 
moving further and further apart.
    Your comments to that, both Mr. Arno and Ms. Seidman.
    Mr. Arno. Thank you, Senator.
    It's a difference between conservation and preservation. 
That conservationist, in a true form, are people who 
participated in extracting a renewable resource for a food 
source.
    Preservationists are just set aside and it's more to 
address the atonement of a nation that marched across the 
continent here and, you know, did not leave full ecosystems 
that have active predator/prey management to provide that food 
source.
    That, you know, when we sat through the d(2) hearings and 
we listened to that the state would still be able to manage 
fish and game, the resource, for conservation, it was still 
that they would because the state has in its constitution that 
Congress accepted the sustained yield clause, that you would 
only harvest enough of that was a harvestable surplus so you 
would still have abundant populations of both fish and game.
    And that, you know, trying--it has always amazed me that 
preservationists who want to stop the opportunity of managing 
that fish and game for abundance don't realize that here we 
are. Here's a renewable resource that's solar powered.
    I mean, you know, look at our moose. They're eating willows 
that grow every year and rivers come through wash it out and 
they grow again. And so we've got 550 pounds of meat off of a 
moose that doesn't have any hormones in it or hasn't been in a 
feed lot. And it's just a matter of being able to harvest that 
resource on a renewable basis, sustained yield.
    And to try to get people who have spent now generations of 
their lives in urban areas and they look at hunting just as the 
sport of it or that you're, you know, just collecting a trophy 
to put on the wall. It's--that's a hard perception to try to 
get across to people, particularly east of the Mississippi 
where you've only got like four percent of the National Park 
lands.
    So that's something in education that we tried to get out 
to the public.
    The Chairman. Ms. Seidman, can you speak to the impact that 
these new Federal regulations would have on fish and game for 
all users within the state?
    Ms. Seidman. Well, one of the things that I think we've, 
the Safari Club, has highlighted in our comments on the 
National Park Service regulations and we'll comment when we 
address the Fish and Wildlife Service changes when they are 
proposed, is that the Federal agencies appear to be trying to 
manage wildlife on their lands as though there are walls around 
their lands, as though they are isolated from the remainder of 
Alaska, as though you could manage a population on one area of 
land that travels back and forth from state lands to Federal 
lands.
    And what the, you know, what the Federal agencies are 
refusing to recognize is that the state has the responsibility 
to manage the wildlife regardless of where that wildlife is 
whether it's on state lands or Federal lands. It's all one 
population, and it's all supposed to be managed for the benefit 
of Alaska's users. So that would be Alaska residents, both 
subsistence and non-subsistence and also those who visit Alaska 
who are taking advantage of the opportunities.
    These Federal changes, these new mechanisms or methods for 
managing wildlife are going to have a huge impact. They may not 
immediately have an impact, but they're going to have a huge 
impact. The National Park Service regulations. The Park Service 
is heading into territory where they now are going to be making 
decisions about what is appropriate in terms of take of 
wildlife, of fish and wildlife. They dodge it, as best they can 
in their comments on their regulation, but it comes out in 
little places and where they want to dictate what qualifies as 
non-subsistence hunting. What's appropriate for non-subsistence 
hunting? And the regulations actually give the Superintendents 
of the individual park areas that are affected, the ability to 
make decisions as time goes on without going through a full 
regulatory process, but just say, you know, we're going to make 
a list later of what is or is not appropriate on Federal lands.
    For Fish and Wildlife Service lands it's much greater. The 
Fish and Wildlife Service is going to attempt to manage refuge 
lands in accordance with natural diversity principles. They've 
already been doing this. They did this with respect to a 
caribou population in a relatively isolated area, but they 
essentially told the state agency that the agency couldn't come 
in and remove seven wolves that were decimating a caribou 
population. They basically said we'll arrest you if you come in 
and do what you were, you know, do management to protect that 
prey population.
    The approach that the Fish and Wildlife Service wants to 
take is that if a predator population is going to do away with 
a prey population, that's natural and that's perfectly okay. 
That will have a huge impact on both subsistence and un-
subsistence users and it's directly in conflict with ANILCA and 
what was intended for ANILCA by its drafters.
    The Chairman. I think it is important to recognize that 
when we are talking about these regulations, whether it is 
coming from Park Service or Fish and Wildlife, that while they 
may be saying we are impacting what is on Federal lands, it 
also has impact on those fish and game stocks and species that 
are on state land, that are on private land, that are on native 
land. Again this clash that we are seeing and the erosion or 
the threat to the ability to the state as manager, I think is a 
very real concern that we are dealing with right now.
    I do not want you to get off the hook here, Ms. Brown. 
Don't think that we are ignoring you. I have just got so many 
things that I want to try to get out on the record here today 
that we are just simply not going to have sufficient time. Let 
me ask one question though to you about some of the comments 
that you have made.
    You have indicated that the integrity of ANILCA, and I do 
not know if that is the right word but I will use it anyway, 
that the integrity of ANILCA was threatened almost as soon as 
it was passed. You and I will agree or disagree on some of the 
issues, certainly as they relate to accessing oil resources 
within the ANWR. I know that you have got concerns about the 
impact of what we have in front of us in the Sturgeon case on 
navigable waters.
    Given the narrow scope of certainly the brief within the 
Sturgeon case, where I would find it totally unexpected for any 
court decision to have any impact, say, on the subsistence 
protections of--that are covered under Title VIII. Do you have 
any other concerns about ANILCA's ability to protect Alaska's 
treasured places, as President Carter said?
    What I think you have heard everybody else on the panel say 
today is that the protections that were in place, that were put 
in place, that were part of this compromise, that were part of 
this balance have been eroded because it has tipped in favor of 
that preservation as opposed to being able to access those 
resources. Your comment?
    Ms. Brown. Well, I disagree that the protections have been 
eroded, and I think there's some misinformation about exactly 
how some of the provisions in ANILCA work.
    I think a couple of good examples of that are the Park 
Service regulations you were just talking about. I know the 
comprehensive plan that the Fish and Wildlife Service has done 
for the Arctic has been a particular point of contention for 
you.
    And I think it's important to realize that ANILCA set up a 
process that provided for the Fish and Wildlife Service to do 
active review of wilderness values in all of the refuges in 
Alaska in that Section 304 of ANILCA and it made 
recommendations, excuse me, in that comprehensive conservation 
plan. And those recommendations are just that, for actual 
wilderness designation that has to go back to Congress. And 
what I hear here is people saying the process of the studies 
that ANILCA directed and the processes that it set up for the 
Federal agencies to manage their lands are a violation of 
promises that were made. But those, the land management 
decisions that the Federal agencies are implementing are 
specifically called for in various sections of ANILCA.
    The National Park Service, for example, was expressly told 
in Section 201 to follow its other governing laws as well as 
the provisions of ANILCA.
    And in the case of the predator control regulations those 
are in direct response to a growing, active predator 
suppression program by the State of Alaska. And it is in direct 
conflict with ANILCA and the Park Service Organic Acts. 
Management dictates for predators.
    The things that the regulations in National Park Service 
regulations ban are not all wildlife management decisions by 
the state. There's a long standing agreement that the state is 
managing wildlife on Federal lands where it's compatible. And 
as we know, it's not always compatible.
    We've had decades of litigation and debate over how to deal 
with the subsistence problem. And here on National Park Service 
lands with the recent growing, aggressive state predator 
suppression program, the Park Service went multiple times to 
the Department of Fish and Game and the Board of Game and said, 
these particular practices, killing of wolves in dens, baiting 
grizzly bears, taking sows with cubs, these things are 
antithetical to how we manage wildlife on park lands. Can we do 
something about it? Can we amend state regulations? Can we try 
to make our mandates work together?
    And that happened, some version of that happened over 60 
times by my count before the National Park Service started 
implementing temporary regulations every year. And this year 
they finally adopted final ones. But that's been a long time 
brewing, but they're not acting in conflict with ANILCA or 
denying access for hunters or violating any other of the many 
provisions of ANILCA that are designed to allow access and 
continued hunting. They're very focused on violations of Park 
Service----
    The Chairman. I think that is another area where we would 
certainly separate and disagree on in terms of how the Federal 
agencies have worked with the state agencies. It has literally, 
in my view, been a railroad over our state agencies which is 
unfortunate as far as management of and recognition that it is 
only through Congressional direction that that wilderness 
designation can be made. We understand that, but we also know 
that what happens is it becomes wilderness, basically a de 
facto wilderness through the management then that comes about.
    We talked earlier about how you kind of creep forward and 
next thing you know you are in effective wilderness status 
where you cannot move. You are strangled, to use Senator 
Coghill's term. So I think this is one of the things that we 
are trying, as Alaskans, to really get out there on the record 
that when the legislation that was agreed to, mightily debated, 
and agreed to. The legislative history is so clear on its face 
that ``no more'' means ``no more.'' Not only no more 
designations, but no more studies to determine whether or not 
we should be doing more.
    As we look to where we are now 35 years later, I think, it 
is a miserable trail of continued broken promises to a state 
that has more opportunities than most any place that I can 
think in terms of what it is that we have but our ability to 
get to it, to utilize it, is just held back at every turn.
    We've been going now for almost two hours. What I would 
like to hear, very quickly, from each of you is we are going to 
have an opportunity for much more input on ANILCA, on the 
promises made to our state by the Federal Government and ways 
that we can get back into balance.
    If each of you could provide two key priorities, two things 
that you think could help us address how we return to a level 
of balance, I would like to hear them. I am going to limit you 
to just two, but you will have an opportunity to weigh in for 
more and most of you have provided in your written testimony a 
whole series of them. So I am going to have you pick between 
your favorites and offer up two of the suggestions that you 
think that we should be turning to from the perspective here in 
Washington, DC to help address the promises made to Alaska.
    Governor Walker.
    Governor Walker. Thank you, Senator Murkowski.
    I come from local government. I believe local government is 
the purest form of government because it's closest to the 
people. I think the further away from the people decisions are 
made the more challenging those decisions become.
    I would love to see, I know we've had, contingents come to 
Alaska from Washington, from Congress, to view our beautiful 
state. I would welcome that again.
    So that's one thing would be to have them come to Alaska to 
show them our opportunities in Alaska, why we would be the 
eighth largest, most energy rich nation in the world if we were 
a nation rather than a state. So that would be one thing.
    Secondly, I think that the agencies--Congress makes the 
laws, the agencies apply regulations and carry them out. We 
need to have a relationship with the agencies such that they 
truly understand the impact of what they're doing----
    So I'd like to add that to the--have the agencies come up, 
not just during the, when the silvers are running and Seward or 
Valdez or when the Copper River Reds are in Cordova, but during 
the winter. During the winter when our rural areas are trying 
to meet their energy needs and see a side of Alaska that we 
deal with that isn't during the particular height of a tourist 
season.
    So I'd like there to be some way that they could see the 
other part of Alaska. We don't get a lot of Congressional 
delegation too, I know, because of the timing. But I'd like 
them to see, sort of, the rest of the story, as Paul Harvey 
would say.
    The Chairman. Well, know that in February, in Bethel, we 
are looking to have a field hearing out there looking at some 
of the energy issues that we face in the state. I am hopeful to 
be able to entice several of our colleagues for an Alaska 
winter tour.
    And on your first point about getting lawmakers up and 
understanding Alaska, as you know there was legislation, the 
ANWR Wilderness legislation, that was introduced yesterday. A 
colleague of mine who happens to hail from the East Coast back 
here has been to Alaska before, and he has been out to the ANWR 
area. He asked to meet with me, and we met for close to an hour 
where he could just ask questions about trying to understand a 
little bit more of Alaska's economy.
    I have been here in the Senate now for almost 13 years, and 
I have to tell you, I was really quite struck by the fact that 
a colleague before he signed onto legislation that related to 
one person's state, one person's state, that he came and asked 
for perhaps a more thorough review. The good news is that he 
has not signed on to that legislation yet.
    Senator Coghill, your suggestions?
    Senator Coghill. Thank you, Senator.
    ANILCA is Alaska specific. Our constitution certainly was 
authorized by Congress so there's a partnership, and if we 
don't do something to make that partnership work better I think 
we have failed both the Federal and national interest and 
Alaska's interest. And so I think the Land Use Council has to 
go in, either reconstituted or reinstated, in whatever way I 
think Congress can help us tie us together because since it is 
so Alaska specific the impacts are great. Since it's a national 
interest we need to understand those national interests.
    I think Alaska's heart, as said here previously, has been 
conservation minded but production oriented. And I think those 
are both well taken. And I think we've been good trustees on 
both accounts.
    We probably have some of the best records for developing 
areas in, kind of, the green field operations in the world. So 
we have a lot to be really pleased about.
    The other thing is I think Congress should go back and lift 
the 17(d) withdrawals. Take the advice from BLM because that 
will start clearing up title. And when you come to land issues, 
if you have title questions, then you can't move forward.
    So those two issues probably would be key in my mind.
    The Chairman. Okay, great. Thank you.
    Mr. Arno.
    Mr. Arno. Yes.
    One of the first things that the Outdoor Council would like 
to see would be defining who has the authority and where that 
as far as the Submerged Land Act and as far as access to 
navigable waters because of the large size of Alaska and the 
conservation system units that those waterways were the 
transportation corridors just for commerce. And that how many 
times we've litigated and tried to get litigation settled to 
determine that where each land manager has the authority. 
Clearing that up would be extremely important.
    The second would be back to: nothing in ANILCA diminishes 
the state's authority to manage fish and game. That one, you 
know, it, the controversy between preservation and conservation 
is going to remain until the state can go ahead and manage the 
resource as the constitution, State Constitution, allowed them 
to.
    The Chairman. Thank you.
    We have not talked much about the Sturgeon case but I think 
we, as Alaskans, recognize the significance of this case before 
the Supreme Court coming up this next year and what that is 
going to mean in terms of more clear definitions regarding who 
has that authority.
    Ms. Brown, your recommendations?
    Ms. Brown. Thank you again for the invitation today. I 
really appreciate it.
    I think maybe the most important thing that can come out of 
this is recognizing that not all lands can be managed the same 
way. Alaska owns as much land as the entire mass of California, 
Washington and Oregon combined. We need to use the conservation 
opportunities that are given to us by ANILCA to address the 
climate change threat and to help Alaska move to a sustainable 
energy economy.
    Thank you.
    The Chairman. Good, thank you.
    Mr. Kindred?
    Mr. Kindred. Thank you, Madam Chair.
    Not to speak in platitudes but I think, you know, the 
common things we see when we deal with Federal agencies are a 
lack of accountability and a lack of transparency. And what I 
mean by that is often times when we are dealt a decision that 
is patently unfair and oftentimes patently illegal we have to 
engage in years of litigation to get a remedy. And even that 
remedy, in and of itself, isn't particularly satisfying.
    And I often think about the litigation I'm involved in and 
at the end of the day there really isn't any accountability. 
There's no skin in the game for these Federal agencies even if 
six years later as the Ninth Circuit rules in our favor they 
just go back and they do something that's slightly different 
and we begin again. I don't know exactly the mechanism or the 
medium by which we can hold these Federal agencies to be more 
accountable, but I think if there was a manner that was short 
of litigation but that had some concrete remedy, I think that 
would be beneficial.
    And the other is transparency in the sense that there are 
so many layers of Federal regulations now and so many different 
laws that apply that it's often difficult to engage in a 
discourse with a Federal agency and get a true answer as to 
what they're doing, when they're going to do it and that 
creates a great deal of uncertainty. And from the members that 
I represent, you know, uncertainty is toxic. And so if there 
was more transparency we'd have a better understanding of why 
Federal agencies were doing it and who to speak to and had some 
mechanism to have that conversation that would also be 
beneficial.
    The Chairman. Thank you. That is important.
    Ms. Seidman.
    Ms. Seidman. Thank you, Madam Chairman.
    I would look for clarification that state managers are and 
I say, at least so at least on an equal level with their 
Federal counterparts when it comes to wildlife management 
decisions that affect both Federal and State lands and users 
and all users.
    And the second one would be to make sure that the Federal 
managers adhere to ANILCA's requirements for management of 
wildlife that concerns all wildlife in balance. And that would 
include a balancing between predator and prey species.
    Thanks.
    The Chairman. Thank you.
    Mr. Tangen?
    Mr. Tangen. Yes, Madam Chairman.
    If you're going to reduce it down to two points there are 
only two points here actually. First of all is ``no more'' and 
second of all is access. And so with regard to ``no more,'' we 
have to find a way to ensure that the land managing agencies in 
Alaska understand and are committed to and held accountable to 
the precepts in the statute that there will be no more lands 
studied for, contemplated, advanced and anything else for the 
restricted access and uses.
    To be perfectly clear I am not particularly concerned about 
the existing conservation system units. I think that what we're 
concerned about is the public domain lands and the Forest 
Service lands which are now being thrown into the bucket. If, 
in fact, there's concerns with regard to how the Park Service 
manages it, those lands were already tied up, so to speak.
    But I think that the second point, the second bookend in 
regard to this is access. And access comes in a variety of 
flavors, obviously. There's R.S. 2477 rights-of-way. There's 
submerged lands, etcetera, navigable waters.
    I would ask that Congress pass language similar to what it 
has in ANILCA concerned tentatively approved lands for 
statehood selections that says that all navigable, all waters 
in Alaska, no matter how small the puddle is, are navigable 
unless the Department of the Interior can establish otherwise. 
Okay? And so therefore the lands are presumed navigable and the 
burden of proof is on the Federal Government to prove 
otherwise.
    In the same sense the R.S. 2477 when it was repealed in 
FLPMA, specifically acknowledged the fact that pre-existing 
rights of way would be continued to be acknowledged. And I 
think that what we need to do is we need to say that the State 
of Alaska, as directed, identified a series of R.S. 2477 rights 
of way and those R.S. 2477 rights of way, by statute, ought to 
be recognized as existing access corridors in the State of 
Alaska.
    And to put a little bit of ribbon around it, they need to 
have a 50 foot from the center line right of way. They need to 
have borrow pits that are within what the people who want to 
develop those rights of way have--would consider reasonable 
access.
    So on those two bookends, no more and access, I think that 
we can solve all the problems that a lot of us have with ANILCA 
right now.
    The Chairman. Thank you, Mr. Tangen.
    I thank each of you. I appreciate the time that you have 
given, the fact that you have all come from very far away to be 
here to represent so many different interests. As I mentioned I 
still have a boatload of questions that I would like to get out 
on the record whether it is how we can work to have ANILCA 
working for us again.
    How we can do better for our small mining operators that 
seem to be just struggling daily trying to understand this 
Byzantine process that we put in front of them. How we work to 
really find that balance. How we make sure that our sportsmen 
and women, as well as our subsistence hunters and those who are 
fishermen, that there is, there is access because we have 
managed well. We have managed in that sustainable way that is 
set forth in our own constitution.
    We have just scratched the surface, I believe, and know 
that there will be more to come on this.
    As I mentioned in my opening comments we have received 
written testimony from other groups that want to be included as 
part of the record. Anyone who wants to submit testimony, we 
will have this Committee record open until Wednesday, December 
16th. If any of you would like to supplement what you have 
provided in writing or here to us today, know that that will be 
welcomed as well.
    This is an issue that, for us as a state, is critical. I 
think it is critical to our economic future, and I think it is 
critical for our identity as Alaskans.
    We, as a state, came into this union with a promise that it 
would be our lands that would sustain us. We were told you are 
never going to have enough people to have that viable tax base 
to count on, so we expect you to be independent. We expect you 
to utilize your resources. And I think that is the wish and 
desire of Alaskans and to access those resources in an 
environmentally responsible way, a sustainable way and one that 
makes us, as Alaskans, proud.
    I mentioned to a colleague just the other day that I will 
judge my success as a parent knowing that my sons will want to 
come back to Alaska as a place that they call home but they are 
able to come back to it as a place where there are strong 
economic opportunities for them and the love of the land that 
we have as Alaskans is able to be maintained, not only for me 
and my husband and our boys, but for generations of Alaskans to 
come.
    And for those who want to see Alaska before I die, we want 
it to be that beautiful promise to them as well. And that is 
our commitment to them.
    I believe each of you believe that we can access our 
resources, that we can keep that promise and do so in a way 
that is not contradictory. Sometimes the challenge that we have 
back here is allowing the rest of the people, who do not know 
Alaskans, to understand that we too care about our environment, 
that we too care about development of our resources. We are 
charged with a great responsibility and we take it up 
willingly, and we are proud of the job that we do.
    So thank you for the jobs that you do in representing so 
many, and thank you for taking the time to be here to establish 
this record for us.
    We have a lot of work ahead of us, but thank you for 
beginning the conversation.
    And with that, the Committee stands adjourned.
    [Whereupon, at 12:11 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
